APPENDIX

la

APPENDIX A

UNITED STATES Court OF APPEALS
FOR THE SIXTH CIRCUIT

VERNON LEE HAVENS II
V
CHIEF JUSTICE MAUREEN O’CONNOR et al,
No. 19-3475
March 20, 2020

ON APPEAL FROM THE UNITED STATES
DISTRICT Court FOR THE
SOUTHERN DISTRICT Court OF OHIO-

ORDER

2a

Before: SILER, DAUGHTREY, and GIBBONS,
CIRCUIT JUDGES

Vernon Lee Havens II, an Ohio resident
proceeding pro se, appeals a district Court
judgement dismissing his complaint. This case
has been referred to a panel of the Court that,
upon examination, unanimously agrees that oral
argument is not needed. See Fed. R. App. P. 34(a)
Havens filed a complaint under 42 U.S.C.
1983 alleging violations of his right to due
process and equal protection when Fayette
County Court of Common Pleas Judge Steven
Beathard denied his motion to recuse and when
Ohio Supreme Court Chief Justice Maureen
O’Connor denied his affidavit of disqualification,
(automatic under Ohio law), as to Judge
Beathard. The defendants then filed motions to

3a

dismiss, which the district Court granted after
determining that it lacked jurisdiction pursuant
to the Rooker-Feldman doctrine. On appeal,
Havens argues that the district Court erred in
dismissing his complaint.
To avoid dismissal for failure to state a
claim, “a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim
to relief that is plausible on its face.: Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (quoting BellAttl.
Corp u. Twombly, 550 U.S. 544, 570 (2007). “[We]
may affirm a decision of the district Court for
any reason supported by the record, including on
grounds different from those on which the district
Court relied.” Stein v. Regions Morgan Keegan
Select High Income Fund, Inc., 821 F.3d 786 (6th
Cir. 2016) (citations omitted).

4a

A judge performing his or her judicial
functions is entitled to absolute immunity. See
generally Mireles v. Waco, 502 U.S. 9 (1991) (per
curiam). Absolute judicial immunity can be
overcome only where: (1) the judge acted in a
non-judicial capacity; or (2) the judge acted in
the complete absence of jurisdiction. Id. at 11-12.
Complete absence of jurisdiction is found “when
the matter upon which [a judge] acts is clearly
outside the subject matter of the Court over
which he preside.” Brookings v. Clunk, 389 F3d
614, 623, (6th Cir. 2004) (quoting Johnson v.
Turner, 125 F.3d 324, 344 (6th Cir. 1997)).
Although Havens alleges that Judge Beathard
and Chief Justice O’Connor were biased and
misrepresented his claims, he has failed to allege
facts showing that the defendants acted in a non­
judicial capacity or in the complete absence of

5a

jurisdiction. Because Judge Beathard and Chief
Justice O’Connor are entitled to absolute judicial
immunity, the district Court did not err in
dismissing the complaint.
Accordingly, we AFFIRM the judgement of
the district Court.

ENTERED BY ORDER OF THE Court
/S/ Deborah S. Hunt, Clerk

6a

APPENDIX B

UNITED STATES DISTRICT Court
For The Southern District of Ohio
Eastern Division.

HAVENS v. O'CONNOR
Case No. 2:19-CV-481
May 15, 2019
In re: 42 U.S.C. § 1983 Civil Rights Act

OPINION AND ORDER

Attorney(s) appearing for the Case:
Vernon Lee Havens, II, Plaintiff, pro se.
Chief Justice Maureen O'Connor, Ohio Supreme
Court, Defendant, represented by Renata Y.
Staff . Ohio Attorney General's Office.

7a

Judge Steven Beathard, Fayette County Court of
Common Pleas, Defendant, represented by
Jeffrey Alan Stankunas . Isaac Wiles Burkholder
& Teetor, LLC.

EDMUND A. SARGUS, JR., Chief District Judge.

This matter is before the Court on
the Motions to Dismiss (ECF Nos. 6, 10) filed
separately by Defendants Chief Justice Maureen
O'Connor ("Chief Justice O'Connor") and Judge
Steven Beathard ("Judge Beathard") (collectively
"Defendants"). Also before the Court are Plaintiff
Vernon Lee Havens, II's ("Havens") miscellaneous
motions .1 For the reasons below, the Court
GRANTS Defendants' Motions to Dismiss. (ECF
Nos. 6, 10). The Court DISMISSES as Havens'
motions (ECF Nos. 3, 7, 8, 14, 15, 16).

8a

I.
On February 2, 2019, Havens initiated this
lawsuit alleging Judge Beathard and Chief
Justice O'Connor violated his Fifth and
Fourteenth Amendments rights by refusing to
recuse from state Court proceedings to which
Havens is a party. Havens also alleges Chief
Justice O'Connor violated his constitutional rights
by improperly denying his Affidavit of
Disqualification as to Judge Beathard. Defendants
individually moved this Court to dismiss Haven's
claims.
II.
To survive a Rule 12(b)(6) challenge, a
complaint "must allege facts that, if accepted as
true, are sufficient 'to raise a right to relief
above the speculative level1 and 'state a claim for
relief that is plausible on its face.1" Hensley Mfg.

9a

ProPride, Inc., 579 F.3d 603. 609 (6th Cir.
2009) (quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544. 555 (2007)). A claim is
plausible where the factual content "allows the
Court to draw the reasonable inference that the
defendant is liable for the misconduct
alleged." Id. (quoting Ashcroft v. Iqbal, 556 U.S.
662. 678 (2009)). In making this determination, a
Court must "construe the complaint in the light
most favorable to the plaintiff, accept its
allegations as true, and draw all reasonable
inferences in favor of the plaintiff." Brickerstaff
v. Lucarelli, 830 F.3d 388. 396 (6th Cir. 2016)
(quoting Directv, Inc. v. Treesh, 487 F.3d 471.
476 (6th Cir. 2007)). A Court need not accept as
true any conclusory legal allegations that lack
specific facts necessary to establish a claim. Id.

10a

III.
Judge Beathard and Chief Justice O'Connor
argue that Havens' claims are barred by
the Rooker-Feldman doctrine because the
allegations directly attack the state-Court's
judgment to deny Havens' requests for
disqualification. See Rooker v. Fidelity Trust
Co., 263 U.S. 413 (1923); District of Columbia
Court of Appeals v. Feldman, 460 U.S.
462 (2005). The Court agrees. The RookerFeldman doctrine bars "cases brought by stateCourt losers complaining of injuries caused by
state-Court judgments rendered before the district
Court proceedings commenced and inviting
district Court review and rejection of those
judgments." Exxon Mobil Corp. v. Saudi Basic
Indus. Corp., 544 U.S. 280. 284 (2005).So then,
"the pertinent inquiry ... is whether the source

11a

of the injury upon which plaintiff bases his
federal claim is the state Court
judgment." Durham v. Haslam, 528 Fed. Appx.
559, 563 (6th Cir. 2013) (quotations omitted). If
the alleged injury's source is a state-Court
decision, then the Rooker-Feldman doctrine
prevents the district Court from asserting
jurisdiction. McCormick v. Braverman, 451 F.3d
382. 393 (6th Cir. 2006). But if there is some
other source of injury, such as a third party's
actions, then the plaintiff may assert an
independent claim. Id. To determine the source of
the alleged injury, the Court reviews Havens'
allegations and requested relief. Durham, 528
Fed. Appx. at 563.
In his Complaint, Havens only alleged injuries
are Defendants' state-Court judgments, which
denied Havens' requests to remove Judge

12a

Beathard from Havens' state-Court
proceedings. Moreover, Havens only requests
relief that challenges and reverses those stateCourt judgments. Therefore, because Havens'
claims merely attack state-Court judgments,
the Rooker-Feldman doctrine bars this Court
from exercising subject-matter jurisdiction over
Havens' claims. Accordingly, the
Court GRANTS Defendants' Motions to
Dismiss. (ECF No. 6, 10).
IV.
For the reasons above, the
Court GRANTS Defendants' Motions to
Dismiss (ECF Nos. 6, 10), thereby DISMISSING
with PREJUDICE Havens' claims. The
Court DISMISSES as MOOT Havens' motions.
(ECF Nos. 3, 7, 8, 14, 15, 16).

13a

IT IS SO ORDERED.

FootNotes
1. Havens has filed several motions ripe for
review, including: Motion for Declaration the
Complaint was Timely Filed (ECF No. 3), Motion
to Enforce Removal of Case #CA2108-10-020 to
Federal Court on Ohio Twelth (sic) District Court
of Appeals (ECF No. 7), Motion to Strike
Defendant's Motion to Dismiss as
Premature (ECF No. 8), Second Motion to
Enforce Removal to Federal Court (ECF No.
14), Motion to Strike Defendant Fyffe's
Answer (ECF No. 15), and Motion to Strike &
Deny Defendant's Motion for Summary
Judgement (sic) (ECF No. 16)

14a

APPENDIX C
CONSTITUTIONAL & STATUTORY
PROVISIONS

First Amendment - “Congress shall make no
law ... prohibiting ... the right of the people ... to
petition the government for a redress of
grievances.”
Fifth Amendment - “No person shall be ...
deprived of life, liberty, or property, without due
process of law.”
Fourteenth Amendment - “No state shall make
or enforce any law which shall abridge the
privileges ... of citizens of the United States; nor
shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny

15a

to any person within its jurisdiction the equal
protection of the laws.
Article III - The judicial power of the United
States, shall be vested in ... such ... Courts as
the Congress may from time to time ordain and
establish.
28 U.S.C. Section 1257 - “(a) Final judgments or
decrees rendered by the highest Court of a
State in which a decision could be had, may be
reviewed by the Supreme Court by writ of
certiorari where the validity of a ... statute of the
United States is drawn in question ..., or where
any ... right, privilege, or immunity is specially
set up or claimed under the Constitution or the
treaties or statutes of, or any commission held or
authority exercised under, the United States.
28 U.S.C. Section 1367 - “(a)Except as provided
in subsections (b) and (c) or as expressly provided

16a

otherwise by Federal statute, in any civil action
of which the district Courts have original
jurisdiction, the district Courts shall have
supplemental jurisdiction over all other claims
that are so related to claims in the action within
such original jurisdiction that they form part of
the same case or controversy under Article III of
the United States Constitution.
28 U.S.C. Section 1441(a.) - “(a) Generally.—
Except as otherwise expressly provided by Act
of Congress, any civil action brought in a State
Court of which the district Courts of the
United States have original jurisdiction, may be
removed by the defendant or the defendants, to
the district Court of the United States for the
district and division embracing the place where
such action is pending.”

17a

28 U.S.C. Section 1446 Procedure for removal of
civil actions, (d) - “Promptly after the filing of
such notice of removal of a civil action the
defendant or defendants shall give written notice
thereof to all adverse parties and shall file a
copy of the notice with the clerk of such State
Court, which shall effect the removal and
the State Court shall proceed no further unless
and until the case is remanded.
42 U.S.C. Section 1983 - “Every person who,
under color of any statute, ordinance, regulation,
custom, or usage, of any State ... subjects, or
causes to be subjected, any citizen of the United
States ... to the deprivation of any rights,
privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress, except

18a

that in any action brought against a judicial
officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall
not be granted unless a declaratory decree was
violated or declaratory relief was unavailable.”
FRCP Rule 42(a.l - (a) Consolidation. If actions
before the Court involve a common question of
law or fact, the Court may: (1) join for hearing
or trial any or all matters at issue in the actions;
(2) consolidate the actions; or (3) issue any other
orders to avoid unnecessary cost or delay.

